OIG Audit Report GR-40-07-008

Compliance with Standards Governing Combined DNA Index System Activities at the Charlotte-Mecklenburg Police Crime Laboratory, Charlotte, North Carolina

Audit Report GR-40-07-008


September 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Charlotte-Mecklenburg Police Crime Laboratory (Laboratory).1 The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes.2 The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards issued by the FBI. 
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level. NDIS became operational in 1998 and is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. DNA profiles originate at the local level, flow upward to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole. 
 The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.3
 The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities. Specifically, we performed testing to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratory’s DNA profiles in CODIS databases were complete, accurate, and allowable. 
We determined that the Laboratory complied with the standards governing CODIS activities with some exceptions. Specifically, we noted the following.

 NDIS operational procedures establish an offender match confirmation process that requires casework laboratories to contact the submitting law enforcement agency and determine if a case with a potential match has been solved. If the case has been solved, it may not be necessary to proceed with the confirmation process. For three of the five matches we reviewed, the Laboratory had not contacted the investigators at the beginning of the match confirmation process to determine whether the case had been solved.  The Laboratory staff told us that the investigators do not always get back to the Laboratory in a timely manner, so the laboratory staff frequently skips this step in the confirmation process.  
 NDIS operational procedures require casework laboratories to notify submitting law enforcement agencies of confirmed matches. While there is no established timeframe for this notification, we believe that absent extenuating circumstances the notification should occur within 2 weeks of the date the match was confirmed. In three of the five matches reviewed, the Laboratory did not notify the investigators within 2 weeks of the confirmation.  For these matches, the investigators were notified in 24, 34, and 39 days, and the Laboratory identified to us no extenuating circumstances. Laboratory staff could not explain the delays but told us that future confirmation reports will be forwarded to the investigators within 2 weeks.

 Laboratories must forward external evaluation reports to the NDIS Custodian within 30 days of receiving the report. As a result of an oversight by the Laboratory, the most recent evaluation report was forwarded 40 days after receipt and an extension of time was not requested as allowed by the NDIS operational procedures. 
 Only DNA samples obtained at the crime scene may be placed in the forensic unknown index at NDIS, and forensic profiles unambiguously attributed to victims or other innocent persons may not be entered. We sampled 100 forensic profiles and found 3 unallowable profiles. For each, the samples were obtained from items originally believed to be tied to the crime scene but subsequently determined not to be connected with the scene. During our audit, the Laboratory deleted the three unallowable profiles and for one sample with a state-level match e-mailed the investigator advising that the match was not valid. 

We made five recommendations to address the Laboratory’s compliance with standards governing CODIS activities, which are discussed in detail in the Findings and Recommendations section of the report. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report. 
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable. 



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
Pub. L. No. 103-322 (1994).
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual. This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS. For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures. 








Return to OIG Home Page